              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




   Audit Report


Management Controls over Small
Business Opportunities at Oak Ridge
National Laboratory




OAS-M-08-08                                 July 2008
                              Department of Energy
                                   Washington, DC 2 0 5 8 5

                                   July 2 , 2 0 0 8


 MEMORANDUM FOR T H ~ ~ ~ A N A G OAK
                                  E R , RIDGE OFFICE

 FROM:
                       -   ~ s s i s t a n ~ ~ n s ~ eGeneral
                                                       c t o r for NNSA and Energy Audits
                           Office of Inspector General

  SUBJECT:                 INFORMATION: Audit Report on "Management Controls
                           over Small Business Opportunities at Oak Ridge National
                           Laboratory"

 BACKGROUND

In 2002, the President stated in his Small Business Agenda that the Federal government
should break out functions to contract with small businesses wherever practicable. In the
Small Business Act, Congress also declared its support of small businesses. In support of
the President's small business agenda and congressional direction, the Department of
Energy (Department) established a policy for small businesses to receive the maximum
practicable opportunity to participate as subcontractors.

UT-Battelle, LLC, a limited liability company consisting of the University of Tennessee
and Battelle, manages and operates the Oak Ridge National Laboratory (Laboratory) for
the Department. In its contract with the Department, UT-Battelle agreed to award small
business subcontracts to the fullest extent consistent with efficient contract performance.
The contract also includes a Federal Acquisition Regulation requirement that small
business concerns have the maximum practicable opportunity to participate in performing
contracts led by any Federal agency.

The Laboratory met or exceeded nearly all of its small business goals established by the
Department for Fiscal Year (FY) 2007. Additionally, the Laboratory's support for small
business was recognized by the Small Business Administration's Francis Perkins
Vanguard Award for excellence in utilization of women-owned small businesses, as well
as the Department's Federal Management Contractors Small Business Innovation Award
in FY 2007.

While the Department met or exceeded nearly all of its 2007 goals, we initiated this audit
to determine whether there were additional opportunities in the Laboratory's internally
performed functions for small business subcontracting.

RESULTS OF AUDIT

Although the Laboratory had contracted about 58 percent of its procurements to small
businesses, we determined that there remained many internally performed functions that
could be practicably and cost effectively subcontracted to small businesses. Specifically,
the Laboratory was performing functions such as custodian services, landscaping, and
industrial hygiene, when small businesses were available to provide these services. For

                               @     Printed with soy ink on recycled paper
                                             2

example, 60 percent of the Laboratory's landscaping work was performed by its
employees, although there were nine landscaping small businesses within the
Laboratory's labor market. Additionally, other Federal facilities with similar labor
markets and/or requirements were using small businesses to perform these functions at
equal to or reduced cost.

The Oak Ridge Office did not require that the Laboratory consider further small business
outsourcing opportunities because the Laboratory had achieved most of the goals set by
the Department. Additionally, Oak Ridge Office managers stated that outsourcing to
small business requires considerable effort and can be difficult. They stated that
challenges such as negotiating with bargaining units can delay efforts to provide
opportunities to small business. However, we noted that another Federal entity in the
same geographic area has successfully provided opportunities to a small business that
also has bargaining unit employees. We also noted that the Laboratory's procedures do
not require program managers to consult with the Small Business Programs Manager
until after they decide to outsource internally performed functions. As a result,
Laboratory managers may not have all available knowledge about addressing the
challenges to small business contracting including information about local small business
capabilities and opportunities.

By giving small business concerns the maximum opportunity to contract at the
Laboratory, the Department has the opportunity to reduce costs, and ensure that the
President's Small Business Agenda is fully implemented. We estimated expanding small
business opportunities at the Laboratory could potentially save about $2 million per year
for custodial, landscaping, and industrial hygiene services. We made recommendations
to expand the Laboratory's small business opportunities.

MANAGEMENT REACTION AND AUDITOR COMMENTS

Management concurred in principle with the recommendations. Management stated that
it has a continuous review process to identify small business outsourcing opportunities.
Management stated that our review provided only a limited view of the work currently
performed in house in that outsourcing decisions must consider factors, other than
financial implications, such as labor relations and safeguards and security. Management
agreed to perform further analyses of the three areas mentioned in the report for potential
outsourcing. In addition, the Laboratory will include the Small Business Programs
Manager in the planning and decision making of contracting actions.

Management's comments were responsive to our recommendations. We recognize that
outsourcing decisions must consider factors other than the financial implications.
Accordingly, we used benchmarks in our analysis that considered labor relations and
safeguards and security. Additional analyses and reviews of internally performed
functions will also benefit from management's inclusion of the Small Business Programs
Manager in future contracting decisions. In our opinion, the Small Business Manager
will ensure that the best small business knowledge is available to address functional
manager's concerns regarding small business capabilities. Management's comments are
included in Appendix 4.
                                          3

Attachment

cc: Acting Deputy Secretary
    Under Secretary of Energy
    Under Secretary for Science
    Chief of Staff
    Director, Office of Economic Impact and Diversity
    Team Leader, Audit Liaison Team, CF-1.2
REPORT ON MANAGEMENT CONTROLS OVER SMALL BUSINESS
OPPORTUNITIES AT OAK RIDGE NATIONAL LABORATORY


TABLE OF
CONTENTS

 Small Business Opportunities

 Details of Finding ....................................................................................1

 Recommendations....................................................................................4

 Comments ................................................................................................5


 Appendices

 1. Common Small Business Functions ...................................................6

 2. Prior Reports .......................................................................................7

 3. Objective, Scope, and Methodology...................................................8

 4. Management Comments .....................................................................10
SMALL BUSINESS OPPORTUNITIES


Laboratory Small     Although Oak Ridge National Laboratory (Laboratory) identified
Business Practices   functions from its procurement base that could be subcontracted
                     to small businesses, we found additional opportunities in
                     Laboratory performed functions for small business contracting.
                     Specifically, Laboratory employees were performing functions that
                     are commonly performed by small businesses even though there
                     were local small businesses available to perform them.
                     Additionally, other Federal facilities with similar labor markets
                     and/or requirements were using small businesses to perform these
                     functions at equal or reduced cost, further supporting that
                     contracting with small businesses was practicable and cost
                     effective.

                                            Laboratory Functions

                     We compiled a list of 82 commonly outsourced functions at the
                     Department of Energy's (Department) laboratories and evaluated
                     the Laboratory's usage of small business in performing these
                     functions. We found that the Laboratory had subcontracted out 30
                     of these functions to small businesses and that the Department's
                     Oak Ridge Office had directly subcontracted another three of these
                     functions as prime contracts. However, we found that the
                     Laboratory had not contracted with small businesses but was using
                     internal personnel for the remaining 49 functions. These 49
                     functions represent the potential for up to $101 million annually in
                     small business contracting opportunities.

                     We determined that utilizing small business at Oak Ridge is
                     practicable because there were local small businesses to perform
                     many functions currently being performed internally by the
                     Laboratory. We judgmentally selected 14 functions including
                     custodial, landscaping, and industrial hygiene services for further
                     review (See Appendix 1 for a list of the functions). Based on a
                     review of the Federal Central Contractor Registration Database,
                     which lists qualified small businesses by function, we identified
                     small businesses locally available to the Laboratory for all 14 of
                     the functions. For example, there were seven custodial small
                     business concerns within 30 miles of the Laboratory.

                     We also found that other Federal facilities in the same labor market
                     with similar requirements as the Laboratory had successfully
                     contracted the functions to small business concerns.




Page 1                                                                Details of Finding
______________________________________________________________________________


                        We benchmarked three of the functions with other local Federal
                        entities to determine whether subcontracting them to small
                        businesses was cost effective. As discussed below, the
                        Department's East Tennessee Technology Park (ETTP), and the
                        National Aeronautics and Space Administration's (NASA) George
                        C. Marshall Space Flight Center (both within the Tennessee
                        Valley), successfully subcontracted work to small businesses in the
                        areas of custodial, landscaping, and industrial hygiene at labor
                        rates less than currently paid by the Laboratory.

                                                      Custodial

                        Although the Laboratory performed custodial services at a cost of
                        $6 million each year, another Federal facility included in our
                        review subcontracted this function to a small business at reduced
                        costs. Specifically, NASA's Marshall Space Flight Center relied
                        on a small business for its custodial services. Custodial services at
                        this facility are provided by a small business with custodians who
                        are represented by a collective bargaining unit. The custodial labor
                        rates paid under the NASA small business contract were
                        approximately 37 percent less than the labor rates for Laboratory
                        employees. A potential savings of about $1.3 million per year
                        could result if the Laboratory were to award a similar contract.

                        Laboratory management expressed concern over the difficulty of
                        subcontracting out functions that are performed by bargaining unit
                        employees. Although we recognize that subcontracting such work
                        requires significant effort, it would result in significant long term
                        savings. Our NASA benchmark organization also utilized union
                        employees.

                                                    Landscaping

                        Laboratory employees provided 60 percent of the landscaping
                        services at a budgeted cost of about $700,000 per year. In contrast,
                        the NASA Marshall Space Flight Center used a small business for
                        its grounds maintenance and landscaping services at a significantly
                        lower cost. The landscaping labor rate paid under the NASA small
                        business contract was approximately 51 percent less than the labor
                        rate for Laboratory employees. Had a similar landscaping small
                        business contract been in place at the Laboratory, the Department
                        could saved about $178,000 annually.




Page 2                                                                   Details of Finding
______________________________________________________________________________


                                                Industrial Hygiene

                        Industrial hygiene functions performed by the Laboratory also
                        offer an opportunity to obtain small business services at reduced
                        costs. Currently, all of the industrial hygiene functions are
                        performed by 34 Laboratory employees, including services such as
                        work area hazard identification and sampling, occupational hazard
                        training and personal protective equipment training. In contrast,
                        ETTP, which is also located in Oak Ridge, requires the same
                        industrial hygiene services and has successfully used small
                        business professionals and technicians to perform this function.
                        Based on a comparison of the labor rates and fringe benefits, we
                        calculated that the Laboratory could potentially save $527,000 per
                        year using a similar small business contracting method.

                        Although Laboratory managers expressed concerns about potential
                        turnover, loss of legacy knowledge, and loss of training
                        investment, ETTP avoided these problems by transitioning its
                        existing work force directly over to the small business. The ETTP
                        Subcontracting Manager stated that employee turnover was not a
                        problem over the last ten years of the small business subcontract.

Outsourcing Analysis    Although the Laboratory's contract states that it is to award
Procedures              small business subcontracts to the fullest extent consistent
                        with efficient contract performance, the Oak Ridge Office had not
                        required the Laboratory to explore further opportunities for small
                        business contracting. Specifically, the Oak Ridge Office believed
                        that the Laboratory had met its contract requirements because it
                        had achieved most of the goals set by the Department. We noted,
                        however, that the Office of Small and Disadvantage Business
                        Utilization recommended in 2004 that Department entities study
                        internally performed functions such as maintenance and
                        occupational safety and health as opportunities for expanded small
                        business contracting.

                        Oak Ridge Office management also stated that outsourcing to
                        small business requires considerable effort and can be difficult.
                        They stated that challenges such as negotiating with unions,
                        identifying and qualifying small businesses, and performing
                        national defense impact assessments can delay efforts to provide
                        opportunities to small business. They cited one example where it
                        took the Oak Ridge Office over four years to outsource an
                        information technology function previously performed by a
                        Laboratory large business subcontractor. The Oak Ridge Office
                        also stated that outsourcing decisions must consider management
                        controls, safeguards and security, and continuity of operations.
______________________________________________________________________________
Page 3                                                         Details of Finding
______________________________________________________________________________


                        Neither the Oak Ridge Office nor the Laboratory could provide
                        documentation showing how such factors and options for dealing
                        with them were addressed in making decisions about outsourcing
                        internally performed functions. Further, we noted that Laboratory
                        procedures do not require program managers to consult with the
                        Laboratory's Small Business Programs Manager until after they
                        decide to outsource internally performed functions. As a result,
                        Laboratory managers may not have all available knowledge about
                        addressing the challenges to small business contracting including
                        information about local small business capabilities and
                        opportunities.

                        Finally, while outsourcing to small businesses can take significant
                        up-front effort, the Laboratory has demonstrated previous success
                        in this area. For example, we noted that the Laboratory initiated a
                        $20 million cost reduction process in Fiscal Year 2001 that
                        resulted in the outsourcing of three functions that significantly
                        contributed toward the cost reduction effort. These functions
                        included secretarial support, animal care, and cafeteria operations.

Small Business          Although Oak Ridge Office management emphasized that cost
Outsourcing             savings is not the primary purpose for outsourcing to small
                        businesses, the Laboratory could save millions of dollars that could
                        be directed to mission-related activities. In addition, it would
                        provide small businesses with up to $101 million per year in
                        additional small business contracts. For custodial, landscaping,
                        and industrial hygiene services discussed previously, we found that
                        the Laboratory could save about $2 million per year if it offered
                        small business contracting opportunities to the maximum extent
                        practicable. Unless additional small business contracts that are
                        both practical and cost effective are realized, the Department may
                        miss opportunities to ensure that the President's Small Business
                        Agenda is implemented.


RECOMMENDATIONS         We recommend that the Manager, Oak Ridge Office:

                           1. Ensure that the Laboratory review internally performed
                              functions, including those discussed in this report, to
                              determine whether they offer additional small business
                              contracting opportunities; and,




Page 4                                                                 Recommendations
______________________________________________________________________________



                           2. Direct the Laboratory to establish a policy to include the
                              Small Business Programs Manager during the resource
                              planning and outsource decision process.


MANAGEMENT             Management concurred in principle with the recommendations and
REACTION               agreed that it is important that small businesses be considered for
                       areas to be contracted out. However, management expressed the
                       view that outsourcing decisions must consider not only financial
                       implications, but must also consider mission or other critical
                       functions such as labor relations and safeguards and security. With
                       reference to the specific recommendations included in the audit
                       report, management agreed to perform further analyses to
                       reconfirm whether its current labor efficiency rates exceed industry
                       averages for the three areas mentioned in the report for potential
                       outsourcing. In addition, management stated that the Laboratory
                       will include the Small Business Programs Manager in the planning
                       and decision making of contracting actions.


AUDITOR                Management's planned actions are responsive to our
COMMENTS               recommendations. Further, we recognize that outsourcing
                       decisions must consider factors other than the financial
                       implications. As such, we used benchmarks in our analysis that
                       considered labor relations and safeguards and security.
                       Management's comments are included in Appendix 4.




Page 5                                                                         Comments
Appendix 1

                        COMMON SMALL BUSINESS FUNCTIONS


Listed below are the 14 Laboratory functions that we judgmentally selected from a multi-site list
of 82 commonly performed functions. In each of these functions, Laboratory employees were
performing the work, in full or a substantial portion of the workload, even though local small
businesses were available.

   •   Internal and External Mail Sorting/Delivery

   •   Printing and Copying Services

   •   Creative Arts

   •   Media Services

   •   Custodial Services

   •   Landscaping Services

   •   Building Maintenance

   •   Vehicle Acquisition and Maintenance

   •   Payroll

   •   Industrial Hygiene (which also covers Laboratory functions such as Instrument and

       Respiratory Services, Chemical Analysis of Radioactive and Waste Samples, and,

       Dosimetry Function).

   •   Fire Protection Engineering Services

   •   Medical Services

   •   Physical Therapy

   •   Low-Level Software Development




Page 6                                                    Common Small Business Functions
Appendix 2

                                       PRIOR REPORTS


Office of Inspector General Reports


•   Management Controls over Small Business Opportunities at Lawrence Livermore National
    Laboratory (OAS-M-06-08, August 2006). This audit found that although Lawrence
    Livermore National Laboratory (Laboratory) contracted many existing large subcontracts to
    small businesses, it had not identified internally performed functions that could be
    subcontracted to small business even though it was practicable and cost effective to do so.
    Specifically, the Laboratory was performing functions, such as custodian services,
    landscaping and occupational medical services, despite the availability of local small
    businesses to provide these services. Additionally, other Federal facilities with similar labor
    markets and/or requirements were using small businesses to perform these functions at equal
    to or reduced cost.


•   The Department's Management and Operating Contractor Make-or Buy Program (DOE/IG-
    0460, February 2000). This audit found that three of four contractors reviewed had either not
    included all functions in their make-or-buy plans or had not scheduled cost-benefit analysis
    for many outsourcing candidates. A cost savings of $5.3 million was estimated if cost
    benefit analyses were conducted. The report recommended that the Department of Energy
    (Department) develop guidance for evaluating and monitoring contractor functions and
    make-or-buy efforts.

Government Accountability Office Report

•   DOE Contracting: Improved Program Management Could Help Achieve Small Business
    Goal, (GAO-06-501) – Issued April 7, 2006. The Government Accountability Office found
    that the Department had some success in redirecting to small business portions of contracts to
    manage large Departmental facilities, as well as in securing additional small business prime
    contracting opportunities. However, the Department was unable to meet its small business
    prime contracting goal in four of the past five years because it had not defined the necessary
    concrete steps nor collected sufficient small business program information to achieve it's
    prime contracting goal. The report also stated that other Federal agencies with missions
    similar to the Department periodically evaluated their programs and made changes intended
    to improve performance.




Page 7                                                                              Prior Reports
Appendix 3

OBJECTIVE     To determine whether there were opportunities in Oak Ridge
              National Laboratory's internally performed functions for small
              business subcontracting.

SCOPE         The audit was performed between July 30, 2007 and
              March 6, 2008. Audit work was primarily performed at the
              Department of Energy's Headquarters in Washington, D.C., and
              Oak Ridge National Laboratory in Oak Ridge, Tennessee. Work
              was also performed at the East Tennessee Technology Park, in Oak
              Ridge, Tennessee; and NASA Marshall Space Flight Center, in
              Huntsville, Alabama.

METHODOLOGY   To accomplish the audit objective, we:

              •   Identified and selected 82 common small business functions for
                  review;

              •   Benchmarked laboratory functions performed by Laboratory
                  employees against other Federal facilities' practices;

              •   Analyzed key documents related to small business utilization at
                  the Laboratory and various Federal and Departmental sites;

              •   Interviewed key Departmental Headquarters, Oak Ridge Site
                  Office, and Laboratory personnel;

              •   Examined prior Office of Inspector General and Government
                  Accountability Office reports; and,

              •   Reviewed applicable Public Laws, other Departmental
                  guidance, related correspondence, and contracts.

              We conducted this performance audit in accordance with generally
              accepted Government auditing standards. Those standards require
              that we plan and perform the audit to obtain sufficient, appropriate
              evidence to provide a reasonable basis for our findings and
              conclusions based on our audit objectives. We believe that the
              evidence obtained provides a reasonable basis for our findings and
              conclusions based on our audit objectives. The audit included tests
              of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Because our
              review was limited, it would not necessarily have disclosed all
              internal control deficiencies that may have existed at the time of
              our audit. Also, we evaluated the Department's implementation of
              the Government Performance and Results Act of 1993 as they
              related to the audit objective. Our review found that the
              Department had established performance measures for utilizing

Page 8                                    Objective, Scope, and Methodology
Appendix 3 (Continued)

                    small business. Finally, since we did not rely upon automated data
                    processing information to accomplish our audit objective, we did
                    not conduct an assessment of the reliability of computer processed
                    data. Management waived an exit conference.




Page 9                                         Objective, Scope, and Methodology
Appendix 4




Page 10      Management Comments
Appendix 4 (Continued)




Page 11                  Management Comments
Appendix 4 (Continued)




Page 12                  Management Comments
                                                                    IG Report No. OAS-M-08-08


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.
Name                                          Date ________________________________________

Telephone                                     Organization __________________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
